App. 1
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
[SEAL]
Everett McKinley Dirksen
United States Courthouse
Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
(Filed Feb. 3, 2021)
Before
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
BLAKE LIETCH, etal.,
Plaintiffs - Appellants
v.
No. 20-1379

COUNCIL 31 OF THE AMERICAN
FEDERATION OF STATE, COUNTY
AND MUNICIPAL EMPLOYEES,
AFL-CIO,
Defendant - Appellee

Originating Case Information:
District Court No: 1:19-cv-02921
Northern District of Illinois, Eastern Division
District Judge Jorge L. Alonso

App. 2
The following is before the court: JOINT MOTION FOR SUMMARY AFFIRMANCE, filed on
February 1, 2021, by counsel for the appellants.
This court has carefully reviewed the final order of
the district court, the record on appeal, and the parties’
joint motion for summary affirmance. Based on this review, the court agrees with the parties that further
briefing would not be helpful to the court’s consideration of the issues. See Taylor v. City of New Albany, 979
F.2d 87 (7th Cir. 1992); Mather v. Village of Mundelein,
869 F.2d 356, 357 (7th Cir. 1989) (per curiam) (court
can decide case on motions papers and record where
briefing would not assist the court and no member of
the panel desires briefing or argument). “Summary
disposition is appropriate ‘when the position of one
party is so clearly correct as a matter of law that no
substantial question regarding the outcome of the appeal exists.’ ” Williams v. Chrans, 42 F.3d 1137, 1139
(7th Cir. 1995), citing Joshua v. United States, 17 F.3d
378, 380 (Fed. Cir. 1994). Here, the district court correctly dismissed the case in light of this court’s decision
in Janus v. AFSCME Council 31, 942 F.3d 352 (7th Cir.
2019). Appellants have preserved their position for review by the Supreme Court. Accordingly,
IT IS ORDERED that the motion is GRANTED,
and the judgment of the district court is summarily
AFFIRMED.

App. 3
UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois –
CM/ECF LIVE, Ver 6.3.1
Eastern Division
Blake Leitch, et al.

Case No.:
Plaintiff, 1:19–cv–02921
Honorable Jorge L.
v.
Alonso
American Federation of State,
County and Municipal Employees,
Council 31, AFL–CIO
Defendant.
NOTIFICATION OF DOCKET ENTRY
(Filed Jan. 30, 2020)
This docket entry was made by the Clerk on Thursday,
January 30, 2020:
MINUTE entry before the Honorable Jorge L.
Alonso: Motion hearing held. For the reasons stated on
the record, Defendant’s motion to lift stay and dismiss
this case pursuant to Fed. R. Civ. P. 12(b)(1) and
12(b)(6) [20] is granted. The Plaintiffs’ opposed the argument set forth in Defendant’s motion and memorandum in support of the motion to dismiss. Civil case
terminated. Notices mailed by judge’s staff (1f, )
ATTENTION: This notice is being sent pursuant to
Rule 77(d) of the Federal Rules of Civil Procedure or
Rule 49(c) of the Federal Rules of Criminal Procedure.
It was generated by CM/ECF, the automated docketing

App. 4
system used to maintain the civil and criminal dockets
of this District. If a minute order or other document is
enclosed, please refer to it for additional information.
For scheduled events, motion practices, recent opinions and other information, visit our web site at
www.ilnd.uscourts.gov.

App. 5
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
)
)
)
)
)
)
)
)
Plaintiffs,
)
v.
)
AMERICAN FEDERATION )
)
OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES, )
)
COUNCIL 31, AFL-CIO,
)
Defendant.
)
BLAKE LEITCH, SHERI
LASH, BETH POLLO,
HEIDI PARENT, JIM
SODARO, TONI HEAD,
CONNIE AMETER,
TAIRANCE McGEE, and
JACK DEHEVE

No.
COMPLAINT
(CLASS ACTION)
(Filed May 1, 2019)

COMPLAINT
1. The U.S. Supreme Court has definitively concluded that unions acted unconstitutionally when they
deducted tens of millions of dollars from public-sector
employees who were not members of a union, but were
required to pay agency fees to the union against their
will. See Janus v. AFSCME, 138 S. Ct. 2448 (2018).
2. Plaintiffs, individually and on behalf of all
agency fee-payers as a class whose money was taken
by American Federation of State, County and Municipal Employees, Council 31, AFL-CIO, (“Council 31”),

App. 6
sue for the return of their money under 42 U.S.C.
§ 1983, because these seizures were made under color
of state law.
3. Plaintiffs, individually and on behalf of the
class, seek compensatory damages from the union for
its violation of their rights under the First and Fourteenth Amendments.
PARTIES
4. Plaintiff Blake Leitch formerly worked at the
state Department of Veterans Affairs. He lives in
Charleston, Coles County, Illinois. Throughout his employment he was forced to pay an agency fee to Council
31 against his will though he was not a member of
Council 31.
5. Plaintiff Sheri Lash is an employee with the
state Department of Children & Family Services. She
lives in Bloomington, McLean County, Illinois.
Throughout her employment she was forced to pay an
agency fee to Council 31 against her will though she
was not a member of Council 31.
6. Plaintiff Beth Pollo is an administrative assistant with the state Department of Employment Security. She lives in Orland Park, Cook County, Illinois.
Throughout her employment she was forced to pay an
agency fee to Council 31 against her will though she
was not a member of Council 31.
7. Plaintiff Heidi Parent works for the Illinois
State Police. She lives in Tinley Park, Cook County,

App. 7
Illinois. Throughout her employment she was forced to
pay an agency fee to Council 31 against her will though
she was not a member of Council 31.
8. Plaintiff Jim Sodaro is a supervisor in the
state Department of Innovation Technology. He lives in
Springfield, Sangamon County, Illinois. Throughout
his employment he was forced to pay an agency fee to
Council 31 against his will though he was not a member of Council 31.
9. Plaintiff Toni Head works for the state Division of Rehabilitation Services. She lives in Benton,
Franklin County, Illinois. Throughout her employment
she was forced to pay an agency fee to Council 31
against her will though she was not a member of Council 31.
10. Plaintiff Connie Ameter works for the state
Department of Human Services. She lives in Olney,
Richland County, Illinois. Throughout her employment
she was forced to pay an agency fee to Council 31,
though she was not a member of Council 31, against
her will.
11. Plaintiff Tairance McGee works for the state
Department of Human Services. He lives in Chicago,
Cook County, Illinois. Throughout his employment he
was forced to pay an agency fee to Council 31, though
he was not a member of Council 31, against his will.
12. Plaintiff Jack DeHeve works for the Illinois
Emergency Management Agency. He lives in Springfield, Sangamon County, Illinois. Throughout his

App. 8
employment he was forced to pay an agency fee to
Council 31, though he was not a member of Council 31,
against his will.
13. Council 31 is a labor union representing public sector employees throughout the State of Illinois. Its
main offices are in Chicago and Springfield, Illinois.
JURISDICTION AND VENUE
14. This case raises claims under the First and
Fourteenth Amendments of the United State Constitution and 42 U.S.C. § 1983. The Court has subjectmatter jurisdiction under 28 U.S.C. § 1331 and 28
U.S.C. § 1343.
15. Venue is appropriate under 28 U.S.C.
§ 1391(b) because Council 31 has its headquarters in
and a substantial portion of the events giving rise to
the claims occurred in the Northern District of Illinois.
CLASS ACTION ALLEGATIONS
16. This case is brought as a class action under
Federal Rule of Civil Procedures 23(b)(3) by Plaintiffs
(“Class Representatives”) for themselves and for all
others similarly situated.
17. The class consists of all current and former
Illinois state employees from whom Council 31 collected agency fees as a condition of their employment
from May 1, 2017 to June 28, 2018.

App. 9
18. Upon information and belief, the number of
persons in the class is so numerous that joinder is impractical.
19. There are questions of law and fact common
to all class members, including Class Representatives,
namely whether Council 31 owes damages to fee-payers whose money was unconstitutionally seized prior
to the Janus decision, which was handed down on June
27, 2018.
20. Class Representatives’ claims are typical of
all class members whose fees were seized in violation
of their First and Fourteenth Amendment rights to
benefit Council 31.
21. Class Representatives are adequate to represent the class and have no conflict with other class
members.
22. Class Counsel is provided by national publicinterest legal aid organizations and are experienced in
representing employees in federal litigation over labor
law issues, having litigated many important cases in
this area of law. These attorneys are able to represent
the interests of the class and will fairly and adequately
do so.
23. The class identified above can be maintained
under Federal Rule of Civil Procedure 23(b)(3) because
questions of law or fact common to the members of the
class predominate over any questions affecting only individual members, in that the important and controlling questions of law or fact are common to all class

App. 10
members, i.e., whether the aforementioned dues deductions violate their First Amendment rights.
24. The class action is superior to other available
methods for the fair and efficient adjudication of the
controversy, inasmuch as the individual respective
class members are deprived of the same rights by
Defendant’s actions, differing only in the amount of
money deducted. This fact is known to Defendant and
easily calculated from Defendant’s business records.
The limited amount of money involved in the class of
each individual’s claim would make it burdensome for
the respective class members to maintain separate
actions.
25. The constitutional violations perpetrated by
Council 31 against all nonmembers were taken according to the same statutes and collective bargaining
agreement, and constitute a concerted scheme that violates Class Representatives’ rights at multiple levels
and locations.
FACTUAL ALLEGATIONS
26. The Illinois Public Labor Relations Act authorizes public employers such as the State of Illinois
and unions such as Council 31 to enter into collective
bargaining agreements whereby the employer would
deduct a so-called “fair share fee” from all employees
in a covered bargaining unit who did not join the union. See 5 ILCS 315/6(e).

App. 11
27. Council 31 and the Illinois Department of
Central Management Services (CMS) entered into a
collective bargaining agreement effective July 1, 2012,
that has continued in force to today due to an impasse
negotiating a new agreement.
28. Article IV, Section 3 of that agreement provides for a “Fair Share” fee that all nonunion employees must pay, supposedly to cover “their share of the
cost of the collective bargaining process, contract administration and the pursuance of matters affecting
wages, hours and conditions of employment. . . .”
29. The Illinois Public Labor Relations Act mandates that “[w]here a collective bargaining agreement
is terminated, or continues in effect beyond its scheduled expiration date pending the negotiation of a successor agreement or the resolution of an impasse under
Section 14, the employer shall continue to honor and
abide by any dues deduction or fair share clause contained therein until a new agreement is reached including dues deduction or a fair share clause.” ILCS
315/6(f ).
30. From July 1, 2012, to the date of the Janus
decision, all non-member employees in the bargaining
units represented by Council 31, including plaintiff
Class Representatives, were forced to pay this “fairshare fee.”
31. Under color of state law, Illinois CMS withheld these fees from Plaintiffs’ and class members’

App. 12
paychecks and, upon information and belief, transferred those funds to Council 31.
32. During times after May 1, 2017, Council 31
should have known that its seizure of fair share fees
from non-consenting employees violated the First
Amendment.
33. On February 9, 2015, Illinois Governor Bruce
Rauner issued an executive order that recognized the
State’s agency fee requirements were likely unconstitutional and that called for the fees to be placed in
escrow “so that each such State Employee will receive
the amount deducted from his or her wages upon the
determination by any court of competent jurisdiction
that the Fair Share Contract Provisions are unconstitutional.” Ill. Executive Order 15-13, § II(e).
34. Council 31, however, did not agree to have
agency fees escrowed while their constitutionality was
resolved. Council 31 sued the State to compel it to keep
seizing agency fees from employees and remitting
those fees to the union. See Illinois AFL-CIO, et al. v.
Bruce Rauner, et al., St. Clair County, Ill. Case No. 2015
CH 171.

App. 13
COUNT I
By collecting agency fees from nonmembers,
Council 31 violated Plaintiffs’ and
class members’ First Amendment rights to
free speech and freedom of association.
35. The allegations contained in all preceding
paragraphs are incorporated herein by reference.
36. The First Amendment’s rights to free speech
and free association protect the choice of nonunion employees of public employers to refuse to pay any fees to
a union acting as the certified representative for their
bargaining unit.
37. The rights to free speech and freedom of association in the First Amendment have been incorporated to and made enforceable against the states
through the Fourteenth Amendment guarantee of
Due Process. NAACP v. Alabama, 357 U.S. 449 (1958);
Gitlow v. New York, 268 U.S. 652 (1925).
38. 42 U.S.C. § 1983 creates a private right of action when a state actor or a private actor acting under
color of state law violates a person’s constitutional
rights.
39. Council 31, acting under color of state law in
concert with the State of Illinois, seized money from
Plaintiffs and class members in violation of their constitutional rights.

App. 14
PRAYER FOR RELIEF
Plaintiffs Blake Leitch, Sheri Lash, Beth Pollo,
Heidi Parent, Jim Sodaro, Toni Head, Connie Ameter,
Tairance McGee, and Jack DeHeve respectfully request that this Court:
a.

Certify the Class; and

b. Enter a judgment declaring that the
Defendant violated Plaintiffs’ and class members’ constitutional rights by negotiating and
maintaining the forced fee provisions of the
Collective Bargaining Agreement; and
c. Enter a judgment declaring that the
Defendant violated Plaintiffs’ and class members’ constitutional rights by collecting fairshare fees from their wages; and
d. Award Plaintiffs and class members
actual damages in the full amount of fees and
any assessments seized from their wages from
May 1, 2017 to June 27, 2018, plus interest,
for violations of their First Amendment
Rights;
e. Award the Plaintiffs’ their costs and
attorneys’ fees under 42 U.S.C. § 1988; and
f. Award any further relief to which
Plaintiffs may be entitled.

App. 15
Dated: May 1, 2019
Respectfully Submitted,
BLAKE LEITCH,
SHERI LASH, BETH
POLLO, HEIDI PARENT,
JIM SODARO, TONI
HEAD, CONNIE
AMETER, TAIRANCE
McGEE, and
JACK DEHEVE
By: /s/ Jeffrey Schwab
Jeffrey M. Schwab
James J. McQuaid
Liberty Justice Center
190 South LaSalle Street,
Suite 1500
Chicago, Illinois 60603
Telephone (312) 263-7668
Facsimile (312) 263-7702
jschwab@
libertyjusticecenter.org
jmcquaid@
libertyjusticecenter.org
Attorneys for Plaintiffs

William Messenger
National Right to
Work Legal Defense
Foundation
8001 Braddock Rd.,
Suite 600
Springfield, VA 22160
703.321.8510
703.321.9319 (fax)
wlm@nrtw.org

